   May 18, 2006




Acquisition
Adjusting the Price and
Restructuring the KC-135 Depot
Maintenance Contract
(Contract No. F42620-98-D-0054)
(D-2006-088)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AFNT                  Air Force Negotiating Team
ASAF (AQ&M)           Assistant Secretary of the Air Force (Acquisitions and
                         Management)
BASC                  Boeing Aerospace Support Center
BRAC                  Base Realignment and Closure
DCAA                  Defense Contract Audit Agency
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
MOA                   Memorandum of Agreement
OC-ALC                Oklahoma City Air Logistics Center
OO-ALC                Ogden Air Logistics Center
PDM                   Programmed Depot Maintenance
REA                   Request for Equitable Adjustment
SM-ALC                Sacramento Air Logistics Center
                            INSPECTOR GENERAL
                          DEPARTMENTOFDEFENSE
                           400 ARMY NAVY DRIVE
                      ARLINGTON, VIRGINIA 22202-4704



                                                                           May 18,2006
MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (ACQUISITION)
               DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Report on Adjusting the Price and Restructuring the KC-135 Depot
         Maintenance Contract (Contract No. F42620-98-D-0054)
         (Report No. D-2006-088)

        We are providing this report for your information and use. We performed the
audit in response to a request from the Assistant Secretary of Defense (Acquisition,
Technology, and Logistics). We considered management comments on a draft of this
report when preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (614) 75 1-1400 extension 2 11 or Mr. John K. Issel at (614)
75 1-1400 extension 2 12. See Appendix B for the report distribution. The team members
are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                        Paul m a n e t t o , CPA
                                      Assistant Inspector General
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2006-088                                                         May 18, 2006
   (Project No. D2005-D000FJ-0172.000)

              Adjusting the Price and Restructuring the KC-135
                        Depot Maintenance Contract
                      (Contract No. F42620-98-D-0054)

                                  Executive Summary

Who Should Read This Report and Why? Air Force program managers and
contracting officials responsible for the KC-135 Aircraft Programmed Depot
Maintenance program should read this report. The report discusses a Request for
Equitable Adjustment and a restructuring of the KC-135 depot maintenance contract.
Both events occurred in CY 2001.

Background. On February 11, 2005, the Acting Under Secretary of Defense
(Acquisition, Technology, and Logistics) requested that the DoD Office of Inspector
General review the Air Force effort to modify the KC-135 depot maintenance contract.
The Acting Under Secretary wanted to determine whether Darleen Druyun, the then
Principle Deputy Assistant Secretary of the Air Force for Acquisitions and Management,
influenced the resolution of the Request for Equitable Adjustment and restructure of the
contract without proper justification and approval.

Results. Air Force and Defense Contract Management Agency records showed that
Ms. Druyun’s influence hurried the outcome of the settlement of the contract price
adjustment and the restructuring of the contract. This caused the Air Force to ignore
information provided by Defense Contract Audit Agency that could have potentially
reduced the program cost by $4.5 million. Air Force officials indicated the quick
settlement reduced the chances of litigation. Additionally, Air Force and Defense
Contract Management Agency records showed that the Boeing Aerospace Support Center
split contract tasking into work units smaller than the 75 hours agreed to in the
restructured contract to avoid justifying the reasonableness of its work. However, during
the audit, the Air Force took steps to stop this practice. As part of the corrective actions,
the Oklahoma City Air Logistics Center canceled the award of the last 2 option years on
the contract on November 30, 2004, and in its place, a 2-year bridge contract was
awarded to the Boeing Aerospace Support Center. The bridge contract required
increased use of firm-fixed pricing of work performed. The Air Force also implemented
increased inspections. Although the Air Force had taken steps to correct problems
associated with the restructure, the Assistant Secretary of the Air Force (Acquisition)
needed to establish a policy to prevent final offers from being proposed during the
Request for Equitable Adjustment negotiations until the Defense Contract Audit Agency
has issued its final report.

Management Comments and Audit Response. Comments from the Military Deputy,
Assistant Secretary of the Air Force (Acquisition) were responsive. The Military Deputy
concurred in part with all recommendations. Although the Military Deputy stated that
each recommendation was covered by provisions of the Federal Acquisition Regulation,
Defense Federal Acquisition Regulation Supplement, Air Force Federal Acquisition
Regulation Supplement, and Air Force Policy Directive; he stated that he will direct his
contract policy team to issue new guidance that reinforces existing regulations. The
issuance of new guidance to reinforce the provisions of existing regulations will help
prevent the types of issues identified during the negotiations for the price adjustment and
contract restructure of the KC-135 Depot Maintenance program.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  1

Finding
     Procedures Used for the Price Adjustment and Restructure on Contract
        F42620-98-D-0054                                                    2


Appendixes
     A. Scope and Methodology                                               8

     B. Report Distribution                                                 9

Management Comments
     Assistant Secretary of the Air Force (Acquisition)                     11
Background
    In the early 1950s, the Boeing Military Airplane Company’s Model 367-
    80 Aircraft was used as the basic design for the commercial Boeing 707 as well as
    the Military KC-135 Stratotanker. The Air Force continues to use the KC-135
    Stratotanker. It is used primarily for refueling Air Force long-range bombers.
    Other DoD Components also use the aircraft in aerial refueling support, including
    Navy and Marine Corps aviation units.

    The Air Force made its first purchase of 29 KC-135s in 1954. The last delivery of
    the aircraft was in 1965. The Air Force purchased 732 KC-135 aircraft during
    production. As the aircraft aged, a program of repair and maintenance was used,
    including regularly scheduled programmed depot maintenance (PDM) at several
    large industrial depots.

    The principal contract the Air Force used to procure inorganic (contractor) depot
    maintenance was contract number F42620-98-D-0054. The Air Force awarded it
    on October 9, 1998. The contract was restructured in CY 2001 and a Request for
    Equitable Adjustment (REA) was submitted by Boeing Aerospace Support Center
    (BASC), on May 7, 2001. Contract restructuring entails adding, removing, or
    rewriting contract clauses or provisions in existing contracts to alleviate problems
    incurred in the performance of the contract. Restructuring could include addition
    of work, deletion of work, or substitution of one item of work for another. REAs
    are requests for additional compensation over and above normal contract payment
    provisions for breached contract terms that the contractor believes the
    Government is liable.

    On February 11, 2005, the Acting Under Secretary of Defense (Acquisition,
    Technology, and Logistics) requested that the DoD Office of Inspector General
    review certain actions taken on the KC-135 PDM contract. The Acting Under
    Secretary wanted to determine whether the former Principal Deputy Assistant
    Secretary of the Air Force for Acquisitions and Management (ASAF/A&M)
    influenced the resolution of the REA and the restructuring of the contract.

Objectives
    Our audit objective was to evaluate whether the KC-135 PDM contract
    restructuring actions and the actions related to the REA were in accordance with
    the Federal Acquisition Regulation (FAR). Specifically, we evaluated the affect
    Ms. Druyun’s influence had on the outcome of these actions. We did not review
    the management control program as it related to the overall objective due the
    limited scope of the audit. See Appendix A for a discussion of the scope and
    methodology.




                                         1
           Procedures Used for the Price
           Adjustment and Restructure on Contract
           F42620-98-D-0054
           The then Principle Deputy Assistant Secretary of the Air Force for
           Acquisitions and Management, Ms. Darlene Druyun, hurried Air Force
           procurement officials’ decisions on the price adjustment of the KC-135
           Programmed Depot Maintenance contract and the restructuring of the
           contract. Her influence resulted in the Air Force not waiting for a final
           contract audit that identified an opportunity to potentially reduce the
           program costs by $4.5 million. In addition, the contractor subsequently
           used certain provisions of the restructured contract to avoid full
           justification of its costs. Official records showed that the Boeing
           Aerospace Support Center split contract tasking into work units smaller
           than 75 hours which did not require justifying the reasonableness of the
           work to Defense Contract Management Agency personnel. This condition
           was corrected. The Oklahoma City Air Logistics Center took positive
           steps to reduce the occurrence of split tasking on the contract. These steps
           included canceling the award of the last 2 option years on the contract on
           November 30, 2004. In its place, a 2-year bridge contract was given to
           Boeing Aerospace Support Center that significantly increased the use of
           firm-fixed price line items for work performed as well as other provisions
           to protect the interest of the Government.


KC-135 Programmed Depot Maintenance History
    The Sacramento Air Logistics Center (SM-ALC) was one of the two organic
    (Government) sources of depot repair, with Oklahoma City Air Logistics Center
    (OC-ALC) being the other. The Air Force also used Pemco Aeroplex
    Incorporated in Birmingham, Alabama, as the inorganic (contractor) source of
    overhaul on the KC-135.

    The 1995 Base Realignment and Closure (BRAC) Commission recommended the
    closure of the SM-ALC. The closure was completed in July 2001. The
    impending closure of SM-ALC created a need for an alternate source of organic
    KC-135 depot repair.

    In its effort to satisfy the need for another organic source of KC-135 repair, the
    Air Force decided to bundle the solicitation of the SM-ALC workload to include
    the KC-135, the A-10, and some commodities. The Air Force stated that unless it
    bundled the procurement of the maintenance of the two systems and the
    commodities, it would incur delays that would jeopardize its BRAC schedule and
    would harm Air Force readiness posture. Furthermore, the Air Force would not
    receive bids for the work on the commodities.

    The prime contractor performing PDM on the KC-135 was Pemco Aeroplex Inc.
    (Pemco). After learning of the Air force decision to bundle the work, Pemco filed

                                        2
           a protest with the Government Accountability Office (GAO) on July 17, 1998.
           Pemco could perform the KC-135 overhaul work, but not the work on the A-10
           and the commodities. Therefore, it would be ineligible for the competition. GAO
           upheld Pemco’s protest on September 25, 1998. 1

           Despite the decision by GAO, the Air Force decided to award contract F04606-
           98-D-0007, valued at $1.5 billion, to the Ogden Air Logistics Center (OO-ALC),
           Hill Air Force Base, Utah on October 8, 1998. The Air Force cited readiness of
           the KC-135 fleet and the planned closure of the SM-ALC as two of the overriding
           factors for selecting OO-ALC.

           OO-ALC did not bid as a lone participant in the work. It had partnered with the
           Boeing Corporation as part of a public-private competition arrangement. After
           being awarded the contract, OO-ALC subcontracted with the McDonnell Douglas
           Corporation, a subsidiary of Boeing, for work on the KC-135. The work was to
           be performed at BASC, located in San Antonio, Texas.

           Although it could not bid on the new contract, Pemco remained a source for
           maintenance until the end of FY 2001, when its contract expired. At the point of
           contract award in 1998, PDM work was to be performed by three sources: BASC,
           Pemco, and OC-ALC.

           During FY 1999 and FY 2000, BASC experienced performance difficulties
           associated with the speed and the quality of its work. Air Force records showed
           BASC excessive PDM flow days were exacerbating an already serious KC-135
           fleet readiness situation. Approximately 45 to 50 percent of the total 400 aircraft
           fleet were not available for use due to long depot maintenance cycle times. As
           part of its management of the program, the Air Force Chief of Staff established a
           goal to reduce the number of aircraft in PDM at any given time to fewer than
           100 aircraft.

           Partnership with Pemco. To alleviate the problems, Air Force officials at the
           Air Logistic Centers and in the Pentagon considered the following options.

                   1. Extend the Pemco contract for KC-135 PDM for an additional 3 years.

                   2. Extend the Pemco contract for 1 year, followed by a BASC and Pemco
                      partnership for FY 2003 through 2007.

                   3. Form a BASC and Pemco partnership for FY 2002 through 2004,
                      followed by a source selection for FY 2005 and beyond.

                   4. Form a BASC and Pemco partnership for FY 2002 through 2007,
                      followed by a source selection for FY 2008 and beyond.

           Air Force officials selected option four and on October 27, 2000, McDonnell
           Douglas and Pemco executed a Memorandum of Agreement (MOA) establishing
           a partnership relationship through FY 2007. In February 2001, Boeing, Pemco,

1
    Comptroller General of the United States Decision, File B-280397, dated September 25, 1998.

                                                     3
           OO-ALC, the Air Force Joint Management Office, and the DCMA signed the
           MOA detailing the processes for managing the KC-135 PDM effort.

           As part of this effort, the Government did not exercise options for the last 2 years
           of its contract but instead used a bridge contract awarded to BASC (with Pemco
           as the subcontractor) effective October 1, 2005, pending award of a new contract
           scheduled to be awarded in July 2006.

           Request for Equitable Adjustment. On May 7, 2001, BASC formally submitted
           a $119 million REA based on late delivery of Government-furnished equipment,
           unexpected levels of deficiencies on the PDM aircraft, and other issues.
           Personnel from OO-ALC, OC-ALC, DCMA, Defense Contract Audit Agency
           (DCAA), and Air Force Materiel Command Headquarters made up the Air Force
           Negotiating Team (AFNT) to evaluate the REA. The procurement contracting
           officer from OO-ALC, whom headed the AFNT, negotiated a settlement of the
           REA over the next 6 months, and it was officially signed out on October 31,
           2001. Under the settlement, BASC was paid $35.8 million of the $119 million
           originally requested.

           Provisions of the Contract Restructure. The Air Force significantly
           restructured the contract using modification P00024 issued on November 1, 2001.
           The restructuring included, among other things, establishing a new, higher
           composite labor rate to account for Pemco’s participation in the PDM effort; an
           agreement to add a BASC management fee for work performed by Pemco; and a
           revised “over and above” 2 process that eliminated Government review of work
           requests for less than 75 hours.


Contract Influence by Former Principal Deputy ASAF/A&M
           Ms. Druyun’s involvement in the decisions on the equitable adjustment and
           restructuring began in 2001. Ms. Druyun often met with various Air Force
           officials, including flag-level military officers, and Boeing company officials to
           discuss the ongoing REA and contract restructure.

           As a result of her influence, Air Force procurement officials indicated that they
           believed they were expected to complete the REA and contract restructure within
           six months (from the time of its submission in May 2001). The influence had the
           following effects on the REA and the restructure.

           Settlement of the Request for Equitable Adjustment. The AFNT requested
           that the DCAA review the provisions of the REA submitted by BASC in May
           2001. However, due to the requirement to complete the REA and restructure
           tasking of the KC-135 PDM within 6 months, AFNT went ahead and submitted
           an offer to BASC to pay $35.8 million of the requested $119 million to settle the
           REA, rather than wait for the final recommendations of DCAA. DCAA
           eventually provided its recommendations in a memorandum dated September 24,
           2001 (after AFNT’s offer to BASC), and proposed a further reduction of
2
    Over and above is work considered non-routine and outside the scope of the firm-fixed-price agreement.

                                                      4
           $4.5 million to the final offer made to BASC. DCAA based its final analysis on
           the level of growth for which the Government had accepted responsibility.

           AFNT personnel stated that they had not had time to adequately consider the new
           rate adjustments proposed by DCAA, and had relied on the initial DCAA report
           submitted on August 6, 2001. In addition to the evidence we obtained on Ms.
           Druyun’s influence on the quick resolution of the REA and contract restructure,
           we questioned the OO-ALC personnel that were members of the AFNT about
           their decision to not wait for DCAA’s final review of the proposed settlement.
           The OO-ALC personnel stated that because of the large number of KC-135
           aircraft needing depot maintenance the REA and contract restructure needed to be
           resolved immediately. Furthermore, we were told that they felt the risk of Boeing
           pursuing litigation against the Air Force out weighed the potential for any savings
           by waiting for DCAA’s final recommendations.

           Had the AFNT used the final DCAA recommended rate adjustments, the REA
           settlement potentially could have been reduced by another $4.5 million. In order
           to prevent this situation from occurring in the future, the Air Force should
           establish a policy to prevent final offers from being proposed during REA
           negotiations until DCAA has issued its final report or analysis of proposed price
           adjustments.

           Issues with the Restructuring of the Contract. The contract provisions for over
           and above work allowed the contractors to charge the Government for work that
           was less than 75 hours without prior approval. The elimination of Government
           review of bills for work done on tasks less the 75 hours caused problems. Air
           Force and DCMA records showed that BASC appeared to split contract tasking
           into work units smaller than 75 hours presumably to avoid justifying the
           reasonableness of the work to DCMA personnel. 3

           An indicator of possible abuse of the 75 hour “over and above” contract provision
           was the significant escalation of those types of requests by the contractors in
           FY 2002 and later. Documentation showed that the number of requests submitted
           by BASC for the first three quarters of FY 2001 was 4,211. However, in FY 2002,
           following the contract restructure, the number of requests submitted by BASC
           and Pemco increased to 88,524. DCMA personnel indicated that due to their
           workload, the scope of their review requirements, and the need to keep production
           going, they did not review this type of task splitting. Consequently, DCMA did
           not catch the abuses.


Corrective Actions Taken on the PDM Contract
           On March 1, 2002, Air Force Materiel Command Headquarters recognized that
           there were problems with maintaining the management control function at OO-
           ALC. According to Air Force Materiel Command, having OO-ALC perform as

3
    DCMA Birmingham/Pemco did not retain records of the instances of splitting of tasks to come under the
    75 hour threshold. DCMA Birmingham/Pemco personnel stated that reviewing work orders for fewer
    than 75 hours was outside the scope of their work.

                                                     5
   the prime contractor overseeing OC-ALC was both cumbersome and duplicative.
   Therefore, Air Force Materiel Command moved the contract oversight
   responsibility for the KC-135 PDM contract to the OC-ALC. OC-ALC took
   several actions to correct problems on the KC-135 PDM contract. One of the first
   actions OC-ALC took was to implement a plan to provide increased visibility
   over costs and control for the KC-135 PDM contract. Also, instead of exercising
   the last 2 option years of the original F42620-98-D-0054 contract, the contract
   was terminated on November 30, 2004. In its place, OC-ALC awarded a new
   contract that contained several new provisions correcting identified problems with
   the previous contract. Air Force contracting officials took time to include clauses
   that reduced the likelihood that the contractor would split tasks and reduced the
   risk to the Government by including specific deliverables and timelines.

   The provisions of the new contract:

          •   made the contract firm fixed-price and included inspection and
              correction of defects as a part of basic cost,

          •   redefined the acceptance clause to ensure that BASC knows when and
              how the Government will take possession of the aircraft,

          •   modified the Government-furnished property provisions by adding
              appropriate clauses,

          •   reduced the “over and above” requirements to only those defects that
              require 200 plus hours to repair,

          •   required proper waivers and approvals to ensure that the contractor-
              furnished material transitioned at the end of the contract,

          •   ensured that transition of Government-furnished material is finalized
              no later than FY 2006, and

          •   strengthened contract provisions so that BASC will not receive
              delivery fees if they can not meet or beat specified delivery dates.
   As a result of the corrective actions taken on the KC-135 PDM contract, we are
   not making any additional recommendations.


Summary
   Personnel at the OC-ALC have taken positive steps to eliminate problems
   associated with the KC-135 PDM contract. However, the controls over the
   negotiation process for REAs need to be strengthened. The Assistant Secretary of
   the Air Force (Acquisition) needs to direct procurement contracting personnel to
   wait until DCAA has provided its final report on all issues related to any REA
   being negotiated on Air Force contracts. The potential for additional cost savings
   should supersede a rush to complete REA negotiations.


                                         6
Recommendations, Management Comments, and Audit
  Response
    The Assistant Secretary of the Air Force (Acquisition) needs to establish a
    policy in the Air Force Federal Acquisition Regulation Supplement to:

           1. Prevent final offers from being proposed during Request for
    Equitable Adjustment negotiations until the Defense Contract Audit Agency
    has issued its final report on proposed price adjustments.

          2. Require a full evaluation and consideration of Defense Contract
    Audit Agency recommendations before providing final offers to the
    contractor.
           3. Prepare a memorandum for the record to explain why
    recommendations from the Defense Contract Audit Agency were not used, if
    applicable.

             Assistant Secretary of the Air Force (Acquisition) Comments. The
    Military Deputy, Office of the Assistant Secretary of the Air Force (Acquisition)
    concurred in part with each recommendation. The Military Deputy stated that full
    implementation of Recommendation 1 would restrict the contracting officer’s
    ability to conclude negotiations when they believe adequate information exists to
    make a fair and reasonable price determination. In addition, the Military Deputy
    stated that for Recommendation 2, existing regulations cover consideration of
    Defense Contract Audit Agency recommendations before providing final offers to
    the contractor. He further stated that regulations already exist concerning
    documentation of field pricing reports, as well as disposition of the report
    findings and results in Recommendation 3. However, the Military Deputy stated
    that he would direct his contract policy team to issue new guidance to contracting
    officers in order to reemphasize that they should not make a final offer in
    negotiations until they have all available and sufficient information to make a fair
    and reasonable price determination. In addition, the new guidance will
    reemphasize the requirement to properly document field pricing support in the
    contract file, including any variances from the Defense Contract Audit Agency
    recommendations.
            Audit Response. Comments from the Military Deputy were responsive.
    Although we agree that existing regulations provide overall guidance, refinement
    of those requirements through the issuance of additional guidance should be
    adequate. The guidance will help prevent the types of issues identified during the
    negotiations on the equitable adjustment and price negotiations for the KC-135
    Depot Maintenance contract.




                                         7
Appendix A. Scope and Methodology
    We performed this audit at the request of the Acting Under Secretary of Defense
    for Acquisition, Technology, and Logistics to determine whether the former
    Principle Deputy Assistant Secretary of the Air Force for Acquisitions and
    Management improperly influenced the procedures used to resolve the REA and
    contract restructure. We conducted interviews and reviewed records maintained
    by DCMA Birmingham, DCMA Kelly, Oklahoma City ALC and Ogden ALC.
    The records included all relevant correspondence, emails, contract files, original
    working papers, and Air Force financial systems and costs systems used at the
    DCMA and contractor facilities between FY 1998 and FY 2005. We also
    interviewed members of the original Darlene Druyun study team involved in the
    review of the KC-135 contract and their subsequent referral for further
    investigation.

    We performed this audit from April 2005 through February 2006 in accordance
    with generally accepted government auditing standards.

    Scope Limitation. We did not review the original KC-135 PDM contract
    (Contract No. F42620-98-D-0054) that OO-ALC had subcontracted to Boeing.
    The scope of this review was limited to the REA and contract restructuring, which
    resulted in modification number P00024 to the original contract. We plan on
    referring questions surrounding the bundling of the SM-ALC workload and award
    to OO-ALC, which essentially unbundled the KC-135 workload by
    subcontracting with Boeing to our Acquisition and Contract Management
    Directorate for potential additional audit work.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the automated systems reviewed, although we used data
    produced by these systems to supplement the audit. We did not evaluate the
    controls because the objective of this audit was to review the actions taken to by
    Air Force officials to settle the price adjustment and contract restructure. Not
    evaluating the controls did not affect the results of the audit.
    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    focuses on the area of DoD approach to business transformation for contract
    management.


Prior Coverage
    During the last 5 years, no prior coverage had been conducted on Air Force
    contract number F42620-98-D-0054.




                                         8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Naval Audit Service

Department of the Air Force
Assistant Secretary of the Air Force (Acquisitions)
Auditor General, Department of the Air Force
Commander, Oklahoma City Air Logistics Center
Commander, Ogden Air Logistics Center

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Contract Management Agency - Birmingham
Director, Defense Contract Management Agency - San Antonio
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency




                                            9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        10
Department of the Air Force Comments




                     11
12
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
John K. Issel
Clarence E. Knight
William C. Blouvet
Ann L. Thompson
